               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Unscheduled Leave Activity in the
          Los Angeles District

         Management Advisory Report




                                              February 6, 2014

Report Number HR-MA-14-004
                                                                      February 6, 2014

                                                  Unscheduled Leave Activity in the
                                                              Los Angeles District

                                                        Report Number HR-MA-14-004



BACKGROUND:
Unscheduled leave is defined as "any         reported unscheduled leave
leave from work that is not requested        occurrences. Also, supervisors did not
and approved in advance." All U.S.           always properly document and maintain
Postal Service employees are expected        attendance records, which could
to maintain assigned work schedules          weaken management’s ability to take
and avoid taking unscheduled leave.          corrective action and effectively address
The Postal Service currently has an          formal disputes. In addition,
initiative to increase workforce             management did not conduct
availability that includes reducing          attendance reviews at the Los Angeles
unscheduled leave.                           Processing and Distribution Center.

The Los Angeles District had one of the      We identified best practices in the San
highest unscheduled leave percentages        Diego District that, if implemented, may
nationwide from fiscal year (FY) 2011        reduce unscheduled leave in the Los
through FY 2013. During this period,         Angeles District. We also noted that Los
unscheduled leave percentages ranged         Angeles Processing and Distribution
from 11.1 to 13.2 percent. Other districts   Center employees requested
that had similar-sized workforces during     unscheduled leave for consecutive
this period had significantly lower          leave days in separate daily requests
unscheduled leave percentages,               rather than in date range blocks. This
ranging from 1.8 to 4 percent. Our           results in multiple unscheduled leave
objective was to assess unscheduled          occurrences. If the Los Angeles District
leave activity in the Los Angeles District   does not implement changes, the rate of
and identify opportunities for reducing      unscheduled leave may continue to
unscheduled leave.                           increase, which could affect mail
                                             distribution operations.
WHAT THE OIG FOUND:
Los Angeles District management need         WHAT THE OIG RECOMMENDED:
to improve the process for managing          We recommended the Los Angeles
unscheduled leave. We found that             District manager develop and implement
supervisors did not always regularly         a clearly defined process for monitoring
monitor unscheduled leave activity.          leave activity, ensure supervisors review
Also, supervisors at the Los Angeles         existing leave entries, and implement
Processing and Distribution Center           control measures to ensure proper
erroneously added new leave entries          documentation and review of leave
during reviews instead of editing existing   activity at the highest risk offices.
ones, which may have increased               Link to review the entire report
February 6, 2014

MEMORANDUM FOR:            EDUARDO H. RUIZ
                           MANAGER, LOS ANGELES DISTRICT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Unscheduled Leave Activity
                           in the Los Angeles District (Report Number HR-MA-14-004)

This report presents the results of our review of Unscheduled Leave Activity in the Los
Angeles District (Project Number 13YG023HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Unscheduled Leave Activity in the Los Angeles District                                                           HR-MA-14-004



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Monitoring Unscheduled Leave ....................................................................................... 2

Unscheduled Leave Request Entries .............................................................................. 3

Review of Postal Service Forms 3971............................................................................. 3

Leave Reviews ................................................................................................................ 4

Best Practices ................................................................................................................. 5

Other Matters .................................................................................................................. 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Management’s Comments ........................................................................ 11
Unscheduled Leave Activity in the Los Angeles District                                              HR-MA-14-004




Introduction

This report presents the results of our self-initiated review of Unscheduled Leave
Activity in the Los Angeles District (Project Number 13YG023HR000). Our objective
was to evaluate unscheduled leave activity in the Los Angeles District and identify
opportunities for reducing unscheduled leave. See Appendix A for additional information
about this review.

Unscheduled leave is defined as "any leave from work that is not requested and
approved in advance." Employees are expected to maintain assigned work schedules
and avoid taking unscheduled leave. Our workplace environment risk model1 revealed
that the Los Angeles District had one of the highest unscheduled leave percentages
nationwide from fiscal years (FY) 2011 through 2013. During this period, its
unscheduled leave percentages ranged from 11.1 to 13.2 percent. Other districts that
had similar-sized workforces at the time had significantly lower unscheduled leave
percentages during this period, ranging from 1.8 to 4 percent. In addition, we found the
Los Angeles Processing and Distribution Center (P&DC) had the highest concentration
of unscheduled leave, with 27,750 of 82,186 total days (34 percent) for the district in
FY 2012. These days represented 22,985 occurrences of 62,710 total occurrences for
the district (or 37 percent).

Conclusion

Management needs to improve its process for managing leave to reduce unscheduled
leave occurrences2 in the Los Angeles District. Within the district, the Los Angeles
P&DC had the highest percentage of unscheduled leave occurrences of any office. We
determined that supervisors did not regularly monitor employees’ unscheduled leave
activity. Also, supervisors at the Los Angeles P&DC were erroneously adding leave
entries into the Enterprise Resource Management System (eRMS).3 In addition, we
determined that supervisors did not always properly complete, file, or secure
Postal Service (PS) Forms 3971, Request for or Notification of Absence. Further,
management did not conduct attendance reviews regularly at the Los Angeles P&DC.

Los Angeles District management is aware of the high percentage of unscheduled leave
and has implemented procedures and practices to reduce absences. However, there
are some practices that other districts use which, if implemented, may help
management further reduce the rate of unscheduled leave in the Los Angeles District
1
  The U. S. Postal Service Office of Inspector General's (OIG) workplace environment risk model ranks U.S. Postal
Service districts in order of risk in different areas such as Equal Employment Opportunity complaints, workers
compensation claims, and unscheduled leave.
2
  Unscheduled leave is defined as any leave from work that is not requested and approved in advance.
3
  eRMS records and manages unscheduled leave requests for employees and is designed to identify unscheduled
absences and provide managers with attendance information.
                                                               1
Unscheduled Leave Activity in the Los Angeles District                                            HR-MA-14-004




and assist the Postal Service in meeting its nationwide goal of increasing workforce
availability. These practices include conducting regular meetings with individuals who
have the highest unscheduled leave occurrences and conducting reviews with
employees each time they return from unscheduled leave.

We also observed that Los Angeles P&DC employees were requesting unscheduled
leave in separate daily requests rather than in date range blocks. Although it is not
specifically prohibited, this practice could have contributed to excessive unscheduled
leave occurrences. If the Los Angeles District does not implement changes, the rate of
unscheduled leave in the district may continue to increase, which could affect mail
distribution operations.

Monitoring Unscheduled Leave

Some supervisors did not regularly monitor their employees’ unscheduled leave activity.
Specifically, three of 14 supervisors4 interviewed did not monitor their employees’
attendance until eRMS identified the employee for taking excessive unscheduled
leave.5 According to the supervisors, the main priority was to achieve their mail
distribution goals. Also, six supervisors indicated monitoring and controlling attendance
was their biggest challenge due to lack of resources and time constraints. Supervisors
also mentioned that lack of computers and printers on the workroom floor made it
difficult for them to adequately monitor attendance and generate PS Forms 3971.

Supervisors are responsible for attendance control for about 30 employees in addition
to mail distribution operations. Attendance control duties included monitoring
employees’ leave activity, generating PS Forms 3971, and identifying disciplinary
actions to be taken. The Labor Relations Role for Leave Management reference guide6
states that a supervisor is responsible for speaking with each employee for every
unscheduled absence and/or conducting a quarterly review of the employee's leave.

In FY 2012, management detailed three distribution supervisors to focus directly on
employee attendance to reduce excessive sick leave at the Los Angeles P&DC.
However, by FY 2013, management eliminated these supervisor detail assignments,
returning the supervisors to their original positions because of staffing shortages. In
August 2013, the Los Angeles P&DC was authorized to have 72 supervisors; however,
it only had 45 permanent supervisors on the payroll at that time. The unit relies heavily
on acting supervisors who may not have taken official supervisor training.

When supervisors do not regularly monitor and control employees’ leave activity, there
is an increased risk of excessive unscheduled leave, which could affect mail distribution
operations.
4
  We interviewed 14 supervisors at the Los Angeles P&DC, including nine permanent supervisors who had taken
official supervisor training and five acting supervisors.
5
  The Los Angeles District designates three unscheduled absences in a fiscal quarter as excessive unscheduled
leave and has programmed eRMS to report any employee with three occurrences or more.
6
  Labor Relations Role in Leave Management, Module 1, page 6, September 2012.

                                                        2
Unscheduled Leave Activity in the Los Angeles District                                                HR-MA-14-004




Unscheduled Leave Request Entries

We found that some supervisors at the Los Angeles P&DC erroneously added new
unscheduled leave entries in eRMS during their review process. Supervisors did not
access the employees' eRMS leave entry, created when the leave was initially
requested, to take action on the request.

When employees request leave using the Interactive Voice Response (IVR) System,7
the system automatically creates an unscheduled leave occurrence in eRMS.
Supervisors must approve or deny that occurrence.8 The IVR System generates an
email notifying the employee’s supervisor of the request. The email contains a link that
allows the supervisor to navigate to the corresponding leave entry in eRMS to perform
the review. However, instead of using the corresponding entry, some supervisors
created new leave entries in the system to approve or deny the request.

One supervisor stated that to change incorrect call-in information, such as leave date or
time, it is easier to add a leave entry than to edit an existing entry. Another supervisor
indicated he was not instructed to use the link in the email. Creating new entries may
erroneously increase the number of unscheduled leave occurrences, which may result
in inaccurate leave reporting.

Review of Postal Service Forms 3971

Supervisors did not always properly complete, file, or secure PS Forms 3971.
Specifically, we reviewed the records of the 20 employees at the Los Angeles P&DC
with the most occurrences of unscheduled leave to verify whether their leave had been
properly documented. These employees collectively had 2,107 occurrences of
unscheduled leave (representing 2,544 days), which represents about 9 percent of total
unscheduled leave occurrences at the Los Angeles P&DC in FY 2012. We found:

   Of the 2,544 days of unscheduled leave, 2,336 (92 percent) were not supported by
    PS Forms 3971.

   Of the 208 PS Forms 3971 reviewed, 27 (13 percent) were missing the supervisor’s
    signature and 122 (59 percent) were missing the employee's signature.

   PS Forms 3971 were stored in an unlocked electrical lateral file cabinet. The cabinet
    was in an office accessible by all employees.

When employees return to work from an unscheduled absence or a tardy situation, they
are required to complete a PS Form 3971.9 Supervisors are responsible for approving

7
  IVR is a system that records an employee’s request for unscheduled leave via the telephone. This type of request is
referred to as a "call-in."
8
  Enterprise Resource Management System, Resource Management Overview, page 3.
9
  Handbook F-21, Time and Attendance, Section 142.32, page 41, August 2009.

                                                          3
Unscheduled Leave Activity in the Los Angeles District                                                     HR-MA-14-004



or denying the leave by signing the form and providing a copy to the employee.10 After
the PS Form 3971 is completed, management is required to store it in a secure location
to prevent its loss, destruction, or unauthorized use.11

The managers, Distribution Operations, for all three tours12 stated that the forms should
be generated by the supervisor and filed in the tour superintendent’s13 office. According
to management, these files are not locked because supervisors on all tours must
access them. In addition, management indicated the forms were previously located in
the data center, where access was limited and a supervisor was present. One manager
mentioned that, because of a work floor redesign, the forms were moved to the tour
superintendent’s office. Six of the 14 supervisors interviewed did not always generate
PS Forms 3971 because of time constraints or limited resources.

Supervisors who do not properly maintain attendance records and supporting
documentation weaken the Postal Service’s ability to take corrective action and to
effectively address issues grieved through the grievance-arbitration procedures.14
Management must provide documentation to support disciplinary action taken when
employees or union representatives file grievances. Examples of supporting
documentation include completed copies of PS Forms 3971 and records of actions
taken. In one instance, the Postal Service's process to remove an employee from the
payroll due to his failure to maintain an assigned work schedule took about 3 years.
Employees who remain on the payroll and continue to use excessive leave may further
contribute to the high levels of unscheduled leave in the Los Angeles District.

Leave Reviews

District management did not conduct regular attendance reviews at the Los Angeles
P&DC, where the highest concentration of unscheduled leave in the district was
occurring. Management had not conducted any attendance reviews at the Los Angeles
P&DC in the last year.

Management assigns leave review teams15 to conduct analyses of unscheduled leave
at about six offices per quarter within the district or at offices that management identifies
as having the highest risk for unscheduled leave. These offices are selected based on
trends of sick leave percentages and analyses of employee leave patterns. During each
site visit, the team conducts a leave analysis and reviews PS Forms 3971 and PS
Forms 3972, Absence Analysis, and evidence of disciplinary action taken.

10
   Handbook F-21, Section 323.1, page 121, August 2009; Employee and Labor Relations Manual, Section 512.422,
page 300, September 2013.
11
   Handbook F-21, Section 142.35, page 43, August 2009.
12
   Tours refer to the different work shifts. A 24-hour facility has three tours: Tour 1 represents the night shift; Tour 2,
the day shift; and Tour 3, the afternoon shift.
13
   A tour superintendent is a Distribution Operations tour manager.
14
   The process by which the parties to a dispute submit their differences to an impartial person or group appointed by
mutual consent or statutory provision to resolve a dispute, difference, disagreement, or complaint between the parties
related to wages, hours, and conditions of employment.
15
   Leave review teams may include designees or performance cluster operations managers, finance managers,
area/district labor relations personnel, or eRMS district administrators.

                                                             4
Unscheduled Leave Activity in the Los Angeles District                                                   HR-MA-14-004




The purpose of the attendance review process is to assist performance clusters16 to
achieve compliance with leave management indicators.17 When asked why they had not
conducted reviews regularly at the Los Angeles P&DC, management stated the reviews
were implemented at the six highest risk offices, excluding the Los Angeles P&DC,
because it was easier to audit smaller offices with fewer employees than to audit a plant
with many employees and a 24-hour operation. Management also believed that, with
their limited staff, auditing a larger quantity of smaller offices would be more effective in
reducing unscheduled leave in the district to meet the Postal Service’s nationwide
goals.18

If management does not conduct leave management and analysis at the Los Angeles
P&DC, the high number of unscheduled leave occurrences at the office may continue to
increase and affect mail distribution operations.

Best Practices

We identified best practices in the San Diego District that, if implemented, could help
the Los Angeles District reduce its unscheduled leave occurrences (see Table 1). The
San Diego District had a similar-sized workforce to the Los Angeles District but fewer
unscheduled leave occurrences.




16
   A performance cluster denotes a geographic service area and includes a customer service district (responsible for
overseeing post offices) and one or more mail processing plants.
17
   Labor Relations Role in Leave Management, Module 1, page 6, September 2012.
18
   Delivering, Results, Innovation, Value, and Efficiency Initiative Number 6 includes increasing workforce availability
by reducing unscheduled sick leave.

                                                            5
Unscheduled Leave Activity in the Los Angeles District                                           HR-MA-14-004



                                         Table 1. Best Practices

                                           eRMS
The Margaret L Sellers (MLS) P&DC had eRMS subject matter experts available to
assist supervisors with concerns or problems related to the system.
                               Monitoring Employee Leave
In the San Diego District when a supervisor is on his or her scheduled day off or on
leave, another permanent supervisor usually handles the administrative duties,
including attendance control. Normally, permanent supervisors handle attendance
control, while acting supervisors primarily assist with mail distribution and cover
supervisors who are on leave.
                               Unscheduled Leave Meeting
MLS P&DC management regularly holds "sick leave escalation" meetings, during which
the manager and supervisor, Distribution Operations, and a labor relations specialist
review the records of employees with high unscheduled leave occurrences. The group
discusses what actions the supervisor has taken and what future actions it plans to
take. The group also reviews the employees’ eRMS Employee Key Indicators Reports19
and PS Forms 3972 for the previous quarter to track their unscheduled leave activity.
The manager and labor relations specialist provide feedback to the supervisor to
develop an effective action plan to reduce the employees’ unscheduled leave. The
manager keeps an attendance review log to track the escalation meeting dates, results,
and attendees.
                                Review of PS Forms 3971
Supervisors hold an informal "meet and greet" or "welcome back" meeting with
employees when they return to work after an unscheduled absence. This meeting is a
way for supervisors to communicate with employees about their absences and to obtain
their signatures on PS Forms 3971. Management stores PS Forms 3971 in a locked
general filing cabinet with a key controlled by an eRMS specialist and registry
personnel.
                                   District Leave Policy
Management provided detailed district leave policies that are posted on the district’s
website and bulletin boards in the MLS P&DC. In addition, on the website, they provided
links to attendance control policies, templates for corrective actions, attendance control
tools, available attendance control classes, and a list of management and supervisor
roles and responsibilities.
Source: Interviews and observations from the San Diego District, September 9-13, 2013.

Other Matters

During our review of the Los Angeles District’s unscheduled leave data, we found Los
Angeles P&DC employees were calling their unscheduled leave daily into the IVR
System for consecutive leave days instead of calling in once to request a date range of
leave. Separate daily call-ins result in multiple unscheduled leave occurrences, while a
date range block results in one unscheduled leave occurrence. Although management

19
  The Employee Key Indicators Report shows all unscheduled leave activity for an employee by finance number,
date, and total leave hours.

                                                        6
Unscheduled Leave Activity in the Los Angeles District                                                 HR-MA-14-004



stated they do not instruct employees to call in their leave daily, this practice could have
contributed to excessive unscheduled leave occurrences.

As shown in Table 2, we found that the number of separate daily call-ins outranked the
number of date range call-in blocks in each district we reviewed. However, none had as
great a difference between the two types as the Los Angeles P&DC. In Quarter 2 of
FY 2012, 3,451 of the total 4,196 call-ins at the Los Angeles P&DC (82 percent) were
separate daily call-ins, as opposed to 745 (18 percent) that were in date range blocks.
Of the 3,451 separate daily call-ins, 1,116 were consecutive call-ins, meaning an
employee took leave on consecutive days but called in on each of those days.

                                     Table 2. P&DC Call-In Data

                                                                                  Lansing
                                                                                   P&DC        Birmingham
                                               MLS P&DC                           (Greater        P&DC
 Call       Los Angeles       Sacramento       (San Diego        Santa Clarita    Michigan      (Alabama
Method         P&DC             P&DC             District)          P&DC          District)      District)
            Calls     %      Calls     %      Calls        %     Calls   %       Calls   %     Calls      %
Separate
daily
call-ins     3,451    82%    2,812     66%     539        53%      399    52%      531   79%     761      57%
Call-in
blocks        745     18%    1,453     34%     472        47%        3    48%      139   21%     574      43%
Total       4,196 100% 4,265 100%             1,011       100%     762 100%        670 100% 1,335        100%
Source: eRMS Leave Usage Log List Report.

Recommendations

We recommend the manager, Los Angeles District:

1. Develop and implement a clearly defined unscheduled leave activity review process
   for supervisors to follow that includes schedules for monitoring leave activity and
   employee discussions as it relates to unscheduled leave control.

2. Instruct supervisors, Distribution Operations, to approve or deny existing
   unscheduled leave entries by accessing the link contained in the email generated by
   the Interactive Voice Response System.

3. Implement controls over Postal Service Forms 3971, Request for or Notification of
   Absence, to ensure proper completion and security.

4. Implement controls to ensure that leave review teams conduct attendance reviews at
   the highest risk offices with unscheduled leave activity.




                                                      7
Unscheduled Leave Activity in the Los Angeles District                       HR-MA-14-004



Management’s Comments

Management agreed with all the recommendations. Regarding recommendation 1,
management will provide attendance control training, and trained subject matter experts
will be available for each tour to assist with eRMS concerns. Also, supervisors will
maintain a binder for employee PS Forms 3972 and will review them quarterly.
Managers will review them annually and each review will be documented via signature
and date on the form. Further, management will conduct monthly attendance meetings
to discuss employee unscheduled absences and associated corrective action. Finally,
managers will track the reviews and sick leave percentages. These actions will be
completed or implemented by February 28, 2014.

Regarding recommendation 2, management will provide instructions to supervisors and
material distribution officers on how to respond to a leave request when it is generated
by the IVR System by February 28, 2014.

Regarding recommendation 3, management will provide each unit a filing cabinet
dedicated to PS Forms 3971 and 3972, to remain locked at all times. Also, when
employees notify management of unscheduled leave, management will put the
employee’s timecard on the supervisor’s desk and direct the employee to complete a
PS Form 3971 after returning to work. These actions will be completed or implemented
by February 18, 2014.

Regarding recommendation 4, labor relations staff will conduct monthly reviews of the
top five offices with respect to unscheduled leave activity. Labor Relations management
will track the reviews, ensure that at least three reviews are conducted per month, and
share the results with senior management. These actions will be implemented by the
end of FY 2014. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1 and 3 significant, and therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                     8
Unscheduled Leave Activity in the Los Angeles District                          HR-MA-14-004




                              Appendix A: Additional Information

Background

Unscheduled leave is defined as "any leave from work that is not requested and
approved in advance." Employees are expected to avoid unscheduled leave and
maintain their assigned work schedules. Employees are also required to request leave
by completing a PS Form 3971 and obtaining approval before taking leave, except in
cases of emergency.

Our workplace environment risk model revealed that the Los Angeles District had one of
the highest unscheduled leave percentages nationwide in FYs 2011, 2012, and 2013.
During this period unscheduled leave percentages ranged from 11.1 to 13.2 percent.
Other districts that had similar-sized workforces to Los Angeles had significantly lower
unscheduled leave percentages during this period, ranging from
1.8 to 4 percent. In FY 2012, the Los Angeles P&DC had 22,985 occurrences of
unscheduled leave of 62,710 total leave occurrences (37 percent). This was more than
any other unit in the district, and the highest percentage of unscheduled occurrences in
the district. The next highest unit in the district had only 6,621 occurrences (10 percent).

Supervisors use eRMS, which focuses on the effective management of scheduled and
unscheduled absences. The system is designed to identify unscheduled absences and
to provide supervisors with information to recognize employees with acceptable
attendance.

Objective, Scope, and Methodology

Our objective was to assess unscheduled leave activity in the Los Angeles District and
identify opportunities for reducing unscheduled leave. To accomplish our objective, we:

   Reviewed FYs 2011, 2012, and 2013 OIG workplace environment risk model data.

   Reviewed FY 2012 eRMS leave data for the Los Angeles, MLS, Sacramento, Santa
    Clarita, Lansing, and Birmingham P&DCs.

   Researched Postal Service policy on unscheduled leave.

   Interviewed management at the Los Angeles and MLS P&DCs and the eRMS
    specialists at the MLS P&DC.

   Hosted a blog related to unscheduled leave policies and procedures where many
    comments cited uncontrollable circumstances as the reason supervisors were
    unable to manage employees.

We conducted this review from June 2013 through February 2014 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for

                                                     9
Unscheduled Leave Activity in the Los Angeles District                        HR-MA-14-004



Inspection and Evaluation. We discussed our observations and conclusions with
management on December 30, 2013, and included their comments where appropriate.

We assessed the reliability of eRMS data by judgmentally comparing system data to
source documentation. We also interviewed an eRMS analyst who was knowledgeable
about the system processes and data. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

Our prior audit report, Postal Service Absenteeism (Report Number HM-AR-10-001,
dated February 18, 2010) found the Postal Service’s total absenteeism rate for major
benefits is comparable to the total absenteeism rate of the federal sector but higher than
that of the civilian sector. We found a potential cause for the difference between the
sectors' absenteeism rates is that the Postal Service offers more leave benefits than the
civilian sector and fewer incentives for employees to accumulate leave. In addition, we
determine some supervisors were not complying with attendance control procedures
related to unscheduled absences. We also determined that Civil Service Retirement
System and Federal Employees Retirement System retirees use comparable amounts
of sick leave in the last years before they retire.




                                                    10
Unscheduled Leave Activity in the Los Angeles District          HR-MA-14-004



                            Appendix B: Management’s Comments




                                                    11
Unscheduled Leave Activity in the Los Angeles District   HR-MA-14-004




                                                    12
Unscheduled Leave Activity in the Los Angeles District   HR-MA-14-004




                                                    13
